APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Fifth Circuit (November 22, 2019)............ la
Order of the United States District Court for the
Southern District of Texas (June 4, 2019)........ 3a
Final Judgment of the United States District
Court for the Southern District of Texas
(June 4, 2019)...... .......................................

10a

App.la
OPINION OF THE UNITED STATES _
COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NOVEMBER 22, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
TERESA ANN WATERS,
Plain tiff-Appellan t,
v.
TEXAS ATTORNEY GENERAL, in their Official
Capacity; HARRIS COUNTY DISTRICT
ATTORNEY’S OFFICE, in their Official Capacity;
TEXAS DEPARTMENT OF PUBLIC SAFETY,
in their Official Capacity: TEXAS DEPARTMENT
OF STATE HEALTH SERVICES, c/o Ken Paxton,
in their Official Capacity; JOHN HELLERSTEDT,
in his Official Capacity: STEVE MCCRAW,
in his Official Capacity; KIM OGG,
in her Official Capacity; KEN PAXTON,
Defen dan ts-Appellees.
No. 19-20414
Appeal from the United States United States
District Court for the Southern District of Texas
USDC No. 4:18-CV-2857
Before: HIGGINBOTHAM, HO,
and ENGELHARDT, Circuit Judges.

App.2a
PER CURIAM:*
AFFIRMED. See Fifth Cir. R. 47.6.

* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4

App.3a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF TEXAS
(JUNE 4, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS,
HOUSTON DIVISON
TERESA ANN WATERS,
Plaintiff,
v.
TEXAS ATTORNEY GENERAL’S OFFICE,
HARRIS COUNTY DISTRICT ATTORNEYS OFFICE,
TEXAS DEPARTMENT OF PUBLIC SAFETY,
TEXAS DEPARTMENT OF STATE HEALTH
SERVICES, KEN PAXTON, JOHN HELLERSTEDT,
STEVE MCCRAW, and KIM OGG,
Defendants.
Civil Action No. H-18-2857
Before: Ewing WERLEIN, JR.
United States District Judge.
Pending is Defendants Ken Paxton, John Hellerstedt, and Steve McCraw’s Motion to Dismiss Plain­
tiffs First Amended Complaint (Document No. 22).
After carefully considering the motion, response, and
applicable law, the Court concludes as follows.

App.4a

Pro se Plaintiff Teresa Ann Waters is a registered
sex offender under the Texas Penal Code4. Plaintiff
filed suit against Texas Attorney General Ken Paxton,
Commissioner of the Texas Department of State
Health Services John Hellerstedt, and Director of the
Texas Department of Public Safety Steve McCraw, in
their official capacities, alleging that her rights to
due process and equal protection under the Fourteenth
Amendment are being violated by her classification as
a Tier III sex offender, a designation which requires
lifetime registration Plaintiff believes her proper
classification should be a Tier I sex offender, such that
she now may be eligible for early termination of her
registration requirement.^ Plaintiff seeks “equitable,
declaratory, and injunctive relief that removes all
barriers to Plaintiff being deregistered as a Tier I sex
Offender.”4 Defendants move to dismiss her claims
on the basis of Eleventh Amendment immunity and
for failure to state a claim.5
Although Defendants style their challenge as one
for failure to state a claim under Fed. R. Civ. P. 12(b)(6),
their primary arguments implicate the Court’s sub­
ject-matter jurisdiction. The burden of establishing
subject-matter jurisdiction is on the party seeking to
1 Document No 21, Ex. A (Compl.).
2 Id. at 3-4
3 Id.
4 Id. at 14
5 Document No, 22. Defendants also argue that based on her
offense and applicable law, Plaintiff is classified correctly as a
Tier III sex offender. However, this legal argument is not a
proper subject of consideration on a Ride 12(b)(6) motion to dismiss.

App.5a

invoke it. Ramming v. United States, 281 F.3d 158, 161
(5th Cir. 2001). A claim is “properly dismissed for
lack of subject-matter jurisdiction when the court
lacks the statutory or constitutional power to adjudi­
cate” the claim. Home Builders Ass’n. Inc. v. City of
Madison, 143 F.3d 2006, 1010 [5th Cir. 1998] [internal
citation omitted). “Federal courts are without jurisdic­
tion over suits against a state, a state agency, or a state
official in his official capacity unless that state has
waived its sovereign immunity or Congress has clearly
abrogated it.” NiGen Biotech, L.L.C. v. Paxton, 804
F.3d 389, 393-94 (5th Cir. 2015). “Texas has not con­
sented by statute, and § 1983 does not abrogate state
sovereign immunity.” Id. at 394. However, claims
against state officials in their official capacities are
not categorically barred because “[a] suit is not
‘against’ a state . . . when it seeks prospective, injunc­
tive relief from a state actor . . . based on an alleged
ongoing violation of the federal constitution.” NiGen
Biotech, L.L.C., 804 F.3d at 394 (citation omitted).
“Under the doctrine articulated in Ex parte Young,
[28 S.Ct. 441 (1908)], a state official attempting to
enforce an unconstitutional law ‘is stripped of his
official clothing and becomes a private person subject
to suit.’” Id. [citation omitted). To determine whether
a suit falls into the narrow exception drawn by Ex parte
Young, “a court need only conduct a straightforward
inquiry into whether [the] complaint alleges an ongoing
violation of federal law and seeks relief properly
characterized as prospective.” Va. Office for Prot. &
Advocacy v. Stewart, 131 S.Ct. 1632, 1639 (2011).
“In circumstances where ‘the defendant’s challenge
to the court’s jurisdiction is also a challenge to the
existence of a federal cause of action, the proper course

App.7a

tion Clause of the Fourteenth Amendment.® Plaintiff
describes various conditions of the Tier III sex
offender classification as depriving her of her “liberty
to be without [these] restrictions” without due process.7
She also alleges denial of “equal protection” because
she believes she is similarly situated with Tier I sex
offenders and yet is being treated as a Tier III sex
offender. 8
These allegations fail to state a claim for violation
of either the Due Process or Equal Protection Clause of
the Fourteenth Amendment. With regard to Plaintiff s
due process claim, as Defendant argues, Plaintiff
“fails to delineate what process she is allegedly being
denied ”9 Attached to Plaintiffs complaint is a letter
from the Texas Department of State Health Services
that states that the Texas Council on Sex Offender
Treatment reviewed her application for early termina­
tion of her registration requirement and denied it based
on her offense, which under both state and federal
law does not qualify for deregistration. 10 Assuming
arguendo that the restrictions Plaintiff lists deprive her
of a liberty interest, such restrictions flow from her
adjudication for aggravated sexual assault of a child,
and she fails to allege any process that she has been
denied in connection with that adjudication or her
designation as a Tier III sex offender. Accordingly,
Plaintiff has not stated a claim for violation of her
® Document No. 21 at 3-4
7 Id.
8 Id.
9 Document No. 22 at 2
19 Document No. 21-1 at 2 of 5.

App.8a

due process rights. See Connecticut Dep’t of Pub.
Safety v. Doe, 123 S.Ct. 1160, 1165 (2003) (finding that
because “the [Connecticut sex offender] law’s require­
ments turn on an offender’s conviction alone—a fact
that a convicted offender has already had a procedurally safeguarded opportunity to contest [,]” no fur­
ther due process was required); id. (Scalia, J., con­
curring) (“[Ejven if the requirements of Connecticut’s
sex offender registration law implicate a liberty inter­
est of respondents, the categorical abrogation of that
liberty interest by a validly enacted statute suffices
to provide all the process that is ‘due’-just as a state
law providing that no one under the age of 16 may
operate a motor vehicle suffices to abrogate that liberty
interest.”); Meza v. Livingston, 607 F.3d 392, 401
(5th Cir. 2010) (“When an individual is convicted of a
sex offense, no further process is due before imposing
sex offender conditions.”); Hollier v. Watson, 605 F.
App’x 255, 258 (5th Cir. 2015) (“Both the United
States Supreme Court, and this court, have held that
sex offender registration statutes do not violate a
citizen’s right to due process.”).
Plaintiffs equal-protection claim fails because she
did not sufficiently allege that she has been treated
differently from others similarly situated. To state a
claim for a violation of equal protection as a “class of
one,” a plaintiff must show that “(l) he or she was
intentionally treated differently from others similarly
situated and (2) there was no rational basis for the dif­
ference in treatment.” Lindquist v. City of Pasadena
Texas, 669 F.3d 225, 233 (5th Cir. 2012) (citing Vill.
of Willowbrook v. Olech, 120 S.Ct. 1073, 1074 (2000).
Plaintiffs complaint generally alleges that Tier I sex
offenders are similarly situated to her and treated

App.9a

differently but she points to no specific person or per­
sons let alone anyone adjudicated for her particular
offense who is classified differently than Plaintiff and/
or subject to different restrictions. Thus, she fails to
state a claim. See Rountree v. Dyson, 892 F.3d 681. 685
(5th Cir. 2018) (affirming dismissal of a plaintiffs equal
protection claim for failure to state a claim because
the plaintiff “generally alleges that other similarly
situated individuals were treated differently, but he
points to no specific person or persons and provides
no specifics”).11 Accordingly, it is
ORDERED that Defendants Paxton, Hellerstedt,
and McCraw’s Motion to Dismiss (Document No. 22)
is GRANTED pursuant to Fed. R. Civ. P. 12(b)(6)
and Plaintiffs remaining claims against Ken Paxton,
John Hellerstedt, and Steven McCraw for declaratory
and injunctive relief are DISMISSED for failure to
state a claim.
A Final Judgment will be entered separately.
The Clerk will enter this Order, providing a correct
copy to all counsel of record.
SIGNED at Houston, Texas, on this day 4th day
of June, 2019.
Is/ Ewing Werlein, Jr._____
United States District Judge

11 Plaintiff also references a challenge to the facial constitutionality
of the Texas sex offender statute in a single, conclusory sentence.
See Document No. 21 at 5. Plaintiff offers no explanation as to why
such law is unconstitutional and this sentence is insufficient to
delineate a claim independent from the constitutional violations
she alleges against the named Defendants.

App.lOa
FINAL JUDGMENT OF THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF TEXAS
(JUNE 4, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS,
HOUSTON DIVISON
TERESA ANN WATERS
Plaintiff,
v.
TEXAS ATTORNEY GENERAL’S OFFICE,
HARRIS COUNTY DISTRICT ATTORNEY’S
OFFICE, TEXAS DEPARTMENT OF PUBLIC
SAFETY, TEXAS DEPARTMENT OF STATE
HEALTH SERVICES, KEN PAXTON,
JOHN HELLERSTEDT, STEVE MCCRAW,
and KIM OGG,
Defendants.
Civil Action No. H-18-2857
Before: Ewing WERLEIN, JR.
United States District Judge.
For the reasons set forth in the Order entered
March 22, 2019, and in the separate order signed this
day, it is

App.lla

ORDERED and ADJUDGED that Plaintiff Teresa
Ann Waters shall take nothing in her action against
Defendants. Plaintiffs claims are dismissed as follows:
Plaintiffs claims against Defendants Texas Attorney
General’s Officer Harris County District Attorney’s
Office, Texas Department of Public Safety, and Texas
Department of State Health Services as well as Plain­
tiffs claims for money damages against Ken Paxton,
John Hellerstedt, Steve McCraw, and Kim Ogg are
DISMISSED for lack of jurisdiction. Plaintiffs claims
against Ken Paxton, John Hellerstedt, Steve McCraw,
and Kim Ogg for declaratory and injunctive relief are
DISMISSED for failure to state a claim.
This is a FINAL JUDGMENT.
The Clerk will enter this Order, providing a correct
copy to all counsel of record.
SIGNED in Houston, Texas, on this 4th day of
June, 2019.
/s/ Ewing Werlein, Jr.
United States District Judge

